No.
INTHE

~upreme <!Court of tbe Wniteb ~tates
SHASE HOWSE,

Petitioner,
V.

THOMAS HODOUS, lNDMDUALLY AND IN HIS OFFICIAL
CAPACITY AS AN EMPLOYEE OF THE CITY OF CLEVELAND,
OHIO; BRIAN MIDDAUGH, INDMDUALLY AND IN HIS
OFFICIAL CAPACITY AS AN EMPLOYEE OF THE CITY OF
CLEVELAND, OHIO,

Respondents.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33. l(h), I certify
that the Petition for a Writ of Certiorari contains 8,910
words, excluding parts of the document that are exempted
by Supreme Court Rule 33.l(d).
Executed on the 5th day of November, 2020.

Samuel Spital
Counsel of Record

